Case: 18-40608

Document: 00515332348

Page: 1

Date Filed: 03/04/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 18-40608
DONG SHENG HUANG,
Plaintiff - Appellant
v.
JALEA JOECHELLE HUE; KAREA MARIE WILLIAMS; MURPHY OIL
USA, INCORPORATED; MICHAEL WAYNE KELEMEN; RICHARD
DRICKS; CITY OF LA MARQUE; RANDALL ARAGON; CHRISTINA
BALVANTIN; 409 TOWING & RECOVERY,
Defendants - Appellees

Appeals from the United.States District Court
for the Southern District of Texas
ON PETITION FOR REHEARING AND REHEARING EN BANC
(Opinion February 3, 2020, 5.Cir., _

__ F.3d

-) .

Before DENNIS, GRAVES, and WILLETT, Circuit Judges.
PER CURIAM:
The Petition for Rehearing is DENIED and no member of this panel nor
judge in regular active service on the court having requested that the
court be polled on Rehearing En Banc, (FED. R. APP. P. and 5™ ClR. R.
35) the Petition for Rehearing En Banc is also DENIED.

A055

>•

Case: 18-40608

Document: 00515332348

Page: 2

Date Filed: 03/04/2020

( )

The Petition for Rehearing is DENIED and the court having been polled
at the request of one of the members of the court and a majority of the
judges who are in regular active service and not disqualified not having
voted in favor, (FED. R. APP. P. and 5ra ClR. R. 35) the Petition for
Rehearing En Banc is also DENIED.

( )

A member of the court in active service having requested a poll on the
reconsideration of this cause en banc, and a majority of the judges in
active service and not disqualified not having voted in favor, Rehearing
En Banc is DENIED.
ENTERED FCX

unite:

A056

;T:

TES CIRCUIT SUDGE

Case: 18-40608

Document: 00515295829

Page: 1

Date Filed: 02/03/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 18-40608

FILED
February 3, 2020
Lyle W. Cayce
Clerk

DONG SHENG HUANG,
Plaintiff - Appellant
v.

JALEA JOECHELLE HILL; KAREA MARIE WILLIAMS; MURPHY OIL
USA INCORPORATED; MICHAEL WAYNE KELEMEN; RICHARD
DRICKS; CITY OF LA MARQUE; RANDALL ARAGON; CHRISTINA
BALVANTIN; 409 TOWING & RECOVERY,
Defendants - Appellees

Appeals from the United States District Court
for the Southern District of Texas
USDC No. 3:15-CV-269
Before DENNIS, GRAVES, and WILLETT, Circuit Judges.
PER CURIAM:*
On the evening of January 5, 2014, Appellant Don Sheng Huang cashed
a lottery ticket at a gas station owned by Murphy Oil USA, Inc. (Murphy Oil),
in La Marque, Texas, purchased a new ticket, and won $5.00. He viewed the
redemption receipt to confirm the winning amount and received his $5.00.
Huang then argued with the cashiers at the teller window, Jalea Hill and
* Pursuant to 5th Cir. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.
A001

Case: 18-40608

Document: 00515295829

Page: 2

Date Filed: 02/03/2020

No. 18-40608
Karea Williams, over whether he could keep the player’s copy receipt for the
$5 ticket. The argument escalated, Williams shut the station’s sliding window,
and Huang called Murphy Oil customer service to complain. Huang did not
leave, and the cashier called 911. Huang drove off, but then returned to the
gas station to look for a receipt in the parking lot; he parked in front of the gas
pump for about five minutes, then drove away. As Huang was leaving, Officer
Michael Kelemen of the La Marque police department stopped him. Officer
Kelemen questioned Huang, Hill, and Williams, and Officer Richard Dricks
assisted during the investigation. Officer Kelemen then arrested Huang for
criminal trespass, though Huang insisted during and after his arrest that Hill
never asked him to leave. The Galveston County District Attorney pursued a
case against Huang on the criminal trespass charge. Huang was acquitted
after a jury trial.
Huang then filed this suit, pro se, bringing claims under 42 U.S.C. § 1983
for violation of his Fourth and Fourteenth Amendment rights, and Texas state
law claims for false imprisonment and malicious prosecution. The defendants
included: (1) Murphy Oil; (2) Hill and Williams; (3) Officers Keleman and
Dricks; (4) Randall Aragon, the police chief; (5) the City of La Marque, Texas;
(6) Christina Balvantin, a legal secretary for the Galveston County District
Attorney’s office who was the affiant on the complaint and information filed by
the district attorney’s office to charge Huang with criminal trespass; and (7)
409 Towing & Recovery, the company that towed Huang’s car on the night of
his arrest.
The district court dismissed Huang’s suit against Chief Aragon, Officers
Kelemen and Dricks, the City, Balvantin, and 409 Towing and Recovery. The
court concluded that (1) Officers Kelemen and Dricks were entitled to qualified
immunity, and Huang’s claims against them were frivolous under 28 U.S.C. §
1915(e)(2)(b)(ii); (2) Huang’s claim against 409 Towing & Recovery was
2
A002

Case: 18-40608

Document: 00515295829

Page: 3

Date Filed: 02/03/2020

No. 18-40608
frivolous; (3) Huang failed to state a claim against Balvantin, and his claim
against her was frivolous; and (4) Huang failed to state a claim against the
City and Chief Aragon, and his suit against them was frivolous. Huang’s
remaining claims for false imprisonment and malicious prosecution against
Murphy Oil, Hill, and Williams proceeded to trial, and a jury found in favor of
the defendants.
Huang raises several points of error on appeal. We will address each in
turn.
First, Huang argues that the district court erred in dismissing his claims
against Chief Aragon, Officers Kelemen and Dricks, the City, Balvantin, and
409 Towing and Recovery. We affirm those judgments for the reasons stated
by that court.
Second, Huang argues that the district court erred in denying his
pretrial motion for summary judgment against Murphy Oil, Hill, and Williams.
We will not review the pretrial denial of a motion for summary judgment
where on the basis of a subsequent full trial on the merits final judgment is
entered adverse to the movant." Black v. J.I. Case Co., 22 F.3d 568, 570 (5th
Cir. 1994) (footnote omitted).

Because Huang proceeded to trial against

Murphy Oil, Hill, and Williams, and a final judgment was rendered in that
case, the district court’s denial of Huang’s pretrial motion for summary
judgment is not reviewable.
Third, Huang asserts that because of a multitude of errors1 the district
court erred in denying his motion for a new trial against Murphy Oil, Hill, and

1 Huang claims, among other things, that he had inadequate time to review the jury
charge and research and formulate objections, instructions in the jury charge were
misleading and incomplete, the jury was confused because he testified on April 12, 2018. but
was not cross-examined until the next day, that he had insufficient time in which to question
potential jurors during voir dire, that the district court erred in denying his motion for
contempt against various witnesses, and that the district court made various incorrect
evidentiary rulings.

3
A003

Case: 18-40608

Document: 00515295829

Page: 4

Date Filed: 02/03/2020

No. 18-40608
Williams. We affirm the district court's ruling. “Courts do not grant new trials
unless it is reasonably clear that prejudicial error has crept into the record or
that substantial justice has not been done, and the burden of showing harmful
error rests on the party seeking the new trial.” Streber v. Hunter, 221 F.3d
701, 736 (5th Cir. 2000). The responsibility of providing an adequate record on
appeal falls to the party seeking review. FED. R. APP. PROC. 10. Here, the
record on appeal does not contain the full trial transcript. In fact, the only
portion of the transcript in the record on appeal containing trial testimony is
an excerpt from the cross-examination of Huang.

The discussions in the

hearing transcripts reveal that several witnesses testified at the trial,
including Officer Kelemen, Hill, Williams, and the district attorney who
prosecuted Huang’s criminal trespass case, among others. We have no record
of their testimony. The district court stated repeatedly that “the record and
the pleadings in this case speak for themselves” and the court explicitly
“rel[ied] on the record for the basis for its ruling denying the motion for a new
trial.” Having neglected to provide a complete record to this court, Huang has
precluded a thorough review of the entire trial proceedings and, therefore, we
\

are unable to conclude “that prejudicial error has crept into the record or that
substantial justice has not been done.” Streber, 221 F.3d at 736.
Finally, Huang argues the district court committed several errors in its
handling of his case, including denying him e-filing privileges, denying him
leave to file a third amended complaint to add another party to the suit,

denying his motion for sanctions based on opposing counsels alleged violation
of a confidentiality order, admitting his medical records into evidence for
impeachment purposes, denying his motion to stay the issuance of final
judgment pending this appeal, denying his request to seal allegedly
confidential documents attached to his first amended complaint and a
summary of the confidential materials, and certifying that any appeal taken
4
A004

Case: 18-40608

Document: 00515295829

Page: 5

Date Filed: 02/03/2020

No. 18-40608
would not be m good faith and therefore denying him in forma pauperis status
for the purposes of appeal. Huang also contends that the district court judge
erred in refusing to recuse himself. We have reviewed these challenges to the
extent the record is sufficient to do so, and we find no improper action on the
part of the district court.
For the foregoing reasons, the judgment of the district court is
AFFIRMED.

5
A005

Case 3:15-cv-00269 Document 279 Filed in TXSD on 06/13/18 Page 1 of 8
United States District Court
Southern District of Texas

ENTERED
June 14, 2018

IN THE UNITED STATE DISTRICT
COURT FOR THE SOUTHERN DISTRICT
OF TEXAS GALVESTON DIVISION
DONG SHENG HUANG,
Plaintiff
v.

JALEA JOECHELLE HILL;
KAREA MARIE WILLIAMS;
MURPHY OIL USA, INC.;
MICHAEL WAYNE KELEMEN;
RICHARD DRICKS;
CITY OF LA MARQUE;
RANDALL ARAGON;
CHRISTINA BALVANTIN; AND
409 TOWING & RECOVERY,
Defendants

§
§
§
§
§
§
§
§
§
§
§
§
§
§
§

David J. Bradley, Clerk

CIVIL ACTION NO. 3:15-CV-00269

FINAL JUDGMENT
BE IT REMEMBERED that on the 26th day of February, 2018, came on for trial
die above entitled and numbered cause, and came the Plaintiff, DONG SHENG HUANG,
in person and pro se, and came the Defendants, JALEA JOECHELLE HILL, KAREA
MARIE WILLIAMS, and MURPHY OIL USA, INC., in person and by and through their
attorney of record, and announced ready for trial. A jury of eight (8) good and lawful
men and women were duly selected, impaneled, and sworn. The case was then recessed
and the trial resumed on April 12, 2018, with the making of opening statements by the
Plaintiff pro se and Defense Counsel and the introduction of evidence. By the 13th day of
April, 2018, all parties had rested tteir cases in open court, and the evidence was closed.

A006

18-40608.1999

V

Case 3:15-cv-00269 Document 279 Filed in TXSD on 06/13/18 Page 2 of 8

After the Court read the charge and the jury heard the summation of the parties,
the case was submitted to die jury on special interrogatories. Thereafter, on the 13th day
of April, 2018, the jury announced that it had reached a verdict and returned it to the
Court. The special questions answered by the jury constituting its verdict were as
follows:
QUESTION NUMBER 1;
Did Jalea Jochelle Hill falsely imprison Dong Sheng Huang?
“Falsely imprison” means to willfully detain another without legal justification,
against his consent, whether such detention be effected by violence, by threat, or
by any other means that restrains a person from moving from one place to another.
Answer “Yes” or “No”:
Answer:

“No”

QUESTION NUMBER 2:
Did Karea Marie Williams falsely imprison Dong Sheng Huang?
“Falsely imprison” means to willfully detain another without legal justification,
against his consent, whether such detention be effected by violence, by threat, or
by any other means that restrains a person from moving from one place to another.
Answer “Yes” or “No”:
Answer:

“No”

2
A007

18-40608.2000

1

;

•\

>

i

r

j

4

4

*

i

;
A

;
<i.

•t>

¥

i

*
r
•■■.

J

s

>
f

Case 3:15-cv-00269 Document 279 Filed in TXSD on 06/13/18 Page 3 of 8

QUESTION yEBIIER3:
Did Jalea Jochelle Hill maliciously prosecute Dong Sheng Huang?
“Malicious prosecution” occurs when one person initiates or procures, with
malice, and without probable cause at the time the prosecution is commenced, the
prosecution of an innocent person.
“Malice” means ill will, bad or evil motive, or such gross indifference to the rights
of others as to amount to a willful or wanton act

:

■:

“Probable cause” means the existence of such facts and circumstances as would
excite belief in a person of reasonable mind, acting on the facts or circumstances
within his knowledge at the time the prosecution was commenced, that die other
person was guilty of a criminal offense. The probable cause determination asks
whether a reasonable person would believe that a crime had been committed given
the facts as the complainant honestly and reasonably believed diem to be before
the criminal proceedings were instituted.
A person procures a criminal prosecution if his actions were enough to cause the
prosecution, and but for his actions the prosecution would not have occurred. A
person does not procure a criminal prosecution when the decision whether to
prosecute is left to the discretion of another, including a law enforcement official
or the grand jury, unless the person fails to fully and fairly disclose all material
information known to him or knowingly provides false information. A criminal
prosecution may be procured by more than one person.
Answer “Yes” or “No”:

;

Answer:

“No”

■

(

3
A008

18-40608.2001

Case 3:15-cv-00269 Document 279 Filed in TXSD on 06/13/18 Page 4 of 8

QUESTION NUMBER 4:
Did Karra Marie Williams maliciously prosecute Dong Sheng Huang?
“Malicious prosecution” occurs when one person initiates or procures, with
malice, and without probable cause at the time the prosecution is commenced, the
prosecution of an innocent person.
“Malice” means ill will, bad or evil motive, or such gross indifference to the rights
of others as to amount to a willful or wanton act.
“Probable cause” means the existence of such facts and circumstances as would
excite belief in a person of reasonable mind, acting on the facts or circumstances
within his knowledge at the time the prosecution was commenced, that the other
person was guilty of a criminal offense. The probable cause determination asks
whether a reasonable person would believe that a cnme had been committed given
the facts as the complainant honestly and reasonably believed them to be before
the criminal proceedings were instituted.
A person procures a criminal prosecution if his actions were enough to cause the
prosecution, and but for his actions the prosecution would not have occurred. A
person does not procure a criminal prosecution when the decision whether to
prosecute is left to the discretion of another, including a law enforcement official
or the grand jury, unless the person fails to fully and fairly disclose all material
information known to him or knowingly provides false information. A criminal
prosecution may be procured by more than one person.
!
*

Answer “Yes” or “No”:
Answer:

<cNo”

The verdict was unanimous. The jury was polled and each juror confirmed that the
verdict was his/her verdict Thereafter the verdict, upon motion, was accepted and
ordered filed with the Court’s file. The jury was then discharged.
Earlier in the case, Defendants, MICHAEL WAYNE KELEMEN, RICHARD
DRICKS, CITY OF LA MARQUE, RANDALL ARAGON, CHRISTINA

4
A009

18-40608.2002

j

Case 3:15-cv-00269 Document 279 Filed in TXSD on 06/13/18 Page 5 of 8

BALVANTIN, AND 409 TOWING & RECOVERY, were dismissed with prejudice by
order of this Court on January 6,2017 (DKT. 92).
The Court is of the opinion and now finds under die pleadings, the
evidence, and the verdict, and referenced earlier dismissal with prejudice, that judgment
should be entered in favor of the Defendants, JALEA JOECHELLE HILL, KAREA
MARIE WILLIAMS, MURPHY OIL USA, INC., MICHAEL WAYNE KELEMEN,
RICHARD DRICKS, CITY OF LA MARQUE, RANDALL ARAGON,

.

CHRISTINA

BALVANTIN, AND 409 TOWING & RECOVERY against the Plaintiff, DONG
SHENG HUANG. It is, therefore,
ORDERED, ADJUDGED, and DECREED that:
1.

Plaintiff, DONG SHENG HUANG, take nothing from the Defendants, JALEA
JOECHELLE HILL, KAREA MARIE WILLIAMS, MURPHY OIL USA, INC.,
MICHAEL WAYNE KELEMEN, RICHARD DRICKS, CITY OF LA
MARQUE, RANDALL ARAGON,

CHRISTINA BALVANTIN, AND 409

TOWING & RECOVERY by reason of this lawsuit.
2.

The costs of court of Defendants, JALEA JOECHELLE HILL, KAREA MARIE
WILLIAMS, MURPHY OIL USA, INC., which total SIX HUNDRED TWENTY

;

NINE AND 60/100 DOLLARS ($629.60), are taxed against the Plaintiff DONG
SHENG HUANG.
4.

Defendants are allowed those writs and processes as may be necessary in the
enforcement and collection of the taxable costs as reflected in this judgment.

5
A010

18-40608.2003

Case 3:15-cv-00269 Document 279 Filed in TXSD on 06/13/18 Page 6 of 8

5.

This is a final judgment disposing of all issues and parties and is appealable. All
relief not granted by this judgment is denied
SIGNED this

day of

.2018.

a:

BY:
Honorable George C. Hanks/fr.
United States District Judge
Southern District of Texas, Galveston Division

6
A011

18-40608.2004

Case 3:15-cv-00269 Document 279 Filed in TXSD on 06/13/18 Page 7 of 8

APPROVED AS TO FORM AND SUBSTANCE:
LeBOEUF & WITTENMYER, P.C.

BYT
D.WITTENIVfi R
[BarNo. 3185
Bar No. 21832855
11757 Katy Freeway, Suite 1300
Houston, Texas 77079
Telephone: (713)463-5422
Facsimile: (713)463-5423
Email: johnwitt@flash.net
ATTORNEY FOR DEFENDANTS:
JALEA JOECHELLE HILL,
KAREA MARIE WILLIAMS, and
MURPHY OIL USA, INC.
Jl

■:

S
■

'A
iJ
II
•i

i

\
v
$

7
A012

18-40608.2005

Case 3:15-cv-00269 Document 279 Filed in TXSD on 06/13/18 Page 8 of 8

CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of the foregoing has been
forwarded to die following counsel of record via electronic service on this the 31st
day of May, 2018, and by email to the Plaintiff.
Mr. William S. Helfand
Mr. Norman Ray Giles
Lewis Brisbois Bisgaard & Smith LLP
24 Greenway Plaza, Suite 1400
Houston, Texas 77046
Ms. Beverly Diane West
Galveston County Legal Department
722 Moody Avenue, 5th Floor
Galveston, Texas 77550
Mr. Dong Sheng Huang
8206 Golf Green Circle
Houston, Texas 77036

Via Email: lockap@yahoo.com

Jl

MML

R

;

i

8
A013

18-40608.2006

Case 3:15-cv-00269 Document 107 Filed in TXSD on 03/21/17 Page 1 of 1
United States District Court
Southern District of Texas

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
GALVESTON DIVISION
DONG SHENG HUANG,
Plaintiff,
VS.

Defendants.

David J. Bradley, Clerk

§
§
§

§

JALEA JOECHELLE HILL, et al,

ENTERED
March 21, 2017

CIVIL ACTION NO. 3:15-CV-269

§
§
§
§

ORDER
On January 6, 2017, this Court issued its Memorandum Order and Opinion,
granting the motions to dismiss filed by Defendants Chief Aragon, Officer Michael
Kelemen, Officer Richard Dricks, the City of La Marque, and Christina Balvantin. Dkt.
92.
Plaintiff, Dong Sheng Huang, has filed a “Motion to Reconsider,” contending that
this Court erred in dismissing his claims against these Defendants. Dkt. 99.
After considering the motion, and the related briefing, as well as all of the
underlying briefing and the record of this case as a whole, and for the reasons stated in its
previous Memorandum Order and Opinion and on the record in open court, the Court
DENIES the motion to reconsider.
SIGNED at Galveston, Texas, this 21st day of March, 2017.

George C.^Hanks Jr.
United States District Judge

1/1
A057

18-40608.938

Case 3:15-cv-00269 Document 92 Filed in TXSD on 01/06/17 Page 1 of 24
United States District Court
Southern District of Texas

ENTERED
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
GALVESTON DIVISION
DONG SHENG HUANG,
Plaintiff,
VS.

January 06, 2017
David J. Bradley, Clerk

§
§
§
§

§ CIVIL ACTION NO. 3:15-CV-269

JALEA JOECHELLE HILL, et al,
Defendants.

§
§
§
§

MEMORANDUM OPINION AND ORDER
Plaintiff, Dong Sheng Huang, is proceeding pro se. Huang’s claims against the
various Defendants arise from events on the evening of January 5, 2014, at a Murphy
USA gas station in La Marque, Texas.
Now pending before the Court are motions to dismiss filed by the Chief of Police
Randall Aragon, Officer Michael Kelemen, Officer Richard Dricks, and the City of La
Marque (Dkt. 66), as well Christina Balvantin (Dkt. 72).
After reviewing the pleadings, the evidence submitted, and the record of this case,
the Court finds that Huang’s claims against Defendants Chief Aragon, Officer Michael
Kelemen, Officer Richard Dricks, the City of La Marque and Christina Balvantin should
be DISMISSED, and that these Defendants’ motions (Dkt. 66, 72) should be
GRANTED because Huang has failed to state a claim and Defendants are entitled to
qualified immunity. Further, under 28 U.S.C. § 1915(e), the Court finds sua sponte that
dismissal of Huang’s claims against these Defendants is warranted.

1/24
A014

18-40608.843

1

Case 3:15-cv-00269 Document 92 Filed in TXSD on 01/06/17 Page 2 of 24

FACTUAL BACKGROUND1
On the evening of January 5, 2014, Huang was travelling through La Marque,
Texas, trying to redeem two scratch-off lottery tickets he had purchased earlier. Huang
took his tickets to a nearby Murphy gas station where Defendants Hill and Williams were
the working as cashiers. Communicating through a teller window, Hill redeemed one of
his tickets for $41.00. Using the proceeds from that first ticket, Huang then bought a third
scratch-off ticket for a price of $5. Hill gave Huang $36.00 in cash, the purchased lottery
ticket, and a sales receipt for the purchase.
Huang then asked Hill to check his newly-purchased ticket. Hill told Huang the
ticket was a “$5 winner.” When Huang asked for a “player copy” of the redemption
receipt, Hill refused to give it to him. She did, however, allow him to view the
redemption receipt to confirm that he had indeed won only $5.00. Huang was duly issued
his $5.00 in cash, but Huang and Hill engaged in a verbal altercation about whether he
was legally entitled to keep a copy of the redemption receipt. According to Huang, Hill
told him, “I’ve been to college, I’m smart.” Huang replied, “No, you’re dumb.” He
alleges that Hill then cursed at him. Eventually, Williams shut the window to end further
conversation, and Huang knocked at the window without response.

The following allegations are taken from Huang’s current live pleading, his Second
Amended Complaint. Dkt. 58. Huang’s Second Amended Complaint spans 37 pages, and is
accompanied by over 20 pages of exhibits, including transcripts of videos that Huang himself
prepared, as well as excerpts from La Marque Police Department Manuals, and unauthenticated
hand-written statements from Murphy Oil employees, with Huang’s comments. The Court
construes the Second Amended Complaint in the light most favorable to Huang, accepts as true
all well-pleaded factual allegations, and draws all reasonable inferences in his favor. See, e.g.,
Lovickv. Ritemoney Ltd., 378 F.3d 433,437 (5th Cir. 2004).
2/24
A015

18-40608.844

Case 3:15-cv-00269 Document 92 Filed in TXSD on 01/06/17 Page 3 of 24

Still at the gas station, Huang used his cell phone to call Murphy’s national
customer service telephone number to lodge a complaint. During the call, the Murphy
customer service representative asked Huang for the names of the tellers, but he did not
know their names. While he was still on the call, however, he alleges that he saw Hill
leave the enclosed teller area and he approached her, “to ask [ ] for her name . . . but she
hurried away from Huang without a word.”
After Huang approached her, Hill then called 911 to ask for police assistance at the
gas station. The 911 dispatcher informed La Marque police officers that “clerks advised
an [AJsian male that will not leave and caused them a problem.”
Before the police arrived, Huang drove away from the gas station. But, just
minutes later, Huang turned his car around and headed back, thinking he had perhaps
dropped his sales receipt for the third lottery ticket. He parked near the gas pumps and
looked for the receipt for approximately five minutes. Just as he drove away from the gas
station for the second time, the La Marque Police arrived. Officer Kelemen of the La
Marque Police Department asked Huang to step out of his car, and he began to question
Huang.
After speaking to Huang, Officer Kelemen interviewed Hill and Williams.
According to Huang, dashcam video from Officer Kelemen’s patrol car reveals that Hill
and Williams gave an embellished version of the events, including that Huang had
“blockf] the gas pump,” insulted Hill by yelling that she was “ignorant,” and claiming
that Huang “hit the window.” Hill also told Officer Kelemen that she had asked Huang to
“get off the property” or she would call the police, but he refused. While Officer
3/24
AO 16

18-40608.845

Case 3:15-cv-00269 Document 92 Filed in TXSD on 01/06/17 Page 4 of 24

Kelemen was investigating the dispute, Officer Dricks of the La Marque Police
Department provided assistance.
Officers Kelemen then placed Huang under arrest—even though he insisted during
and after his arrest that Hill’s statements were not accurate. According to Huang, Officer
Kelemen appeared sympathetic during the investigation and arrest, telling Huang “[S]he
misunderstood you,” and stating, “Oh, hey hell, I would think they lied to me about it.”
After his arrest, Huang’s car was towed away from the gas station by Defendant 409
Towing & Recovery.
Huang was booked into the La Marque City Jail and then transferred to the
Galveston County Jail. Huang alleges that Officer Kelemen’s report and paperwork for
the arrest included “wrong, falsified info[] to make Huang look like having committed
criminal trespass.” Huang was indeed charged with criminal trespass, and he was
released on a pre-trial bond the next day.
After he was released, Huang retrieved his car, paid the towing and storage fees,
and then drove back to the La Marque Police Department. Huang obtained a copy of his
booking report and asked to speak with Chief of Police Randall Aragon. Chief Aragon
and Lieutenant Jackson met with Huang, and they also provided Huang with a copy of
his arrest report. Huang alleges that a Murphy USA representative called him later that
day, and “apologized to Huang for what had happened and promised to investigate and
notify Huang by Friday, but never contacted Huang afterwards.”
A week later, Huang again spoke to Lieutenant Jackson, who told Huang that the
police had obtained the video from gas station surveillance cameras, but Huang would
4/24
A017
k.

18-40608.846

Case 3:15-cv-00269 Document 92 Filed in TXSD on 01/06/17 Page 5 of 24

need to get his own copy. Huang filed an internal affairs complaint with the La Marque
Police Department against Officer Kelemen.
Huang alleges that the Galveston County District Attorney then pursued a case
against him on the criminal trespass charge, and the affiant on the Complaint was
Defendant Christina Balvantin. Huang alleges that an Assistant District Attorney for
Galveston County, Richard Hayes, offered to “dismiss the case if Huang [pled] guilty,
[and paid] $100 fine, plus court costs.” Huang alleges that the Galveston County District
Attorney performed an incomplete investigation of the case because Haynes’ file did not
have the dashcam video, the surveillance video from the gas station, or a recording of the
911 call.
Huang was ultimately given a copy of the surveillance video by the Galveston
County DA’s Office, but he alleges that it had been edited. Huang eventually used a civil
subpoena to obtain a copy of the surveillance video from Murphy USA, as well as the
personnel files of Williams and Hill and the internal report of the event from Murphy’s
investigation. Hill also obtained his complete case file from the La Marque Police
Department, as well as Officer Kelemen’s “personnel file.”
Huang sent a copy of the video he obtained from Murphy to the Galveston County
DA. However, instead of dismissing the complaint against him after viewing the copy of
the video, the Galveston County DA filed an Amended Complaint against him and
continued to proceed with the charges. At trial, a jury acquitted Huang of criminal
trespass. Huang successfully petitioned for expungement of the arrest. Huang also
requested that the La Marque Police Department investigate Hill and Williams for “filing
5/24

A018

18-40608.847

Case 3:15-cv-00269 Document 92 Filed in TXSD on 01/06/17 Page 6 of 24

false report and perjury” and that Officer Kelemen be investigated for “recklessly making
arrest based on false info, and even falsifying] information on the police report and
affidavit.”
LEGAL BACKGROUND
On September 17, 2015, Huang filed an application in this Court to file his lawsuit
in forma pauperis. His application was granted, and this current lawsuit commenced.
Huang’s current live pleading is his Second Amended Complaint, which was filed on
May 24, 2016. Dkt. 58.
Defendants have moved to dismiss of the each successive versions of Huang’s
complaint.
LEGAL STANDARDS
A. Federal Rule of Civil Procedure 12(b)(6)
Under Rule 8 of the Federal Rules of Civil Procedure, a pleading must contain “a
short and plain statement of the claim showing that the pleader is entitled to relief.” FED.
R. Civ. P. 8(a)(2). A Rule 12(b)(6) motion tests the formal sufficiency of the pleadings
and is “appropriate when a defendant attacks the complaint because it fails to state a
legally cognizable claim.” Ramming v. United States, 281 F.3d 158, 161 (5th Cir. 2001).
The court must accept the factual allegations of the complaint as true, view them in a
light most favorable to the plaintiff, and draw all reasonable inferences in the plaintiffs
favor. Id. To defeat a motion to dismiss pursuant to Rule 12(b)(6), a plaintiff must plead
“enough facts to state a claim to relief that is plausible on its face.” Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 127 S.Ct. 1955, 1974, 167 L.Ed.2d 929 (2007). “A claim has
6/24
A019

18-40608.848

Case 3:15-cv-00269 Document 92 Filed in TXSD on 01/06/17 Page 7 of 24

facial plausibility when the plaintiff pleads factual content that allows the court to draw
the reasonable inference that the defendant is liable for the misconduct alleged.” Ashcroft
v. Iqbal, 556 U.S. 662, 129 S.Ct. 1937, 1949, 173 L.Ed.2d 868 (2009) (citing Twombly,
550 U.S. at 556). “The plausibility standard is not akin to a ‘probability requirement,’ but
it asks for more than a sheer possibility that a defendant has acted unlawfully.” Id.
(quoting Twombly, 550 U.S. at 556). “Where a complaint pleads facts that are ‘merely
consistent with’ a defendant’s liability, it ‘stops short of the line between possibility and
plausibility of entitlement to relief.”’ Id. (quoting Twombly, 550 U.S. at 557). When
plaintiffs “have not nudged their claims across the line from conceivable to plausible,
their complaint must be dismissed.” Twombly, 550 U.S. at 570; accord Iqbal, 556 U.S. at
678 (noting that “[determining whether a complaint states a plausible claim for relief
will... be a context-specific task that requires the reviewing court to draw on its judicial
experience and common sense”).
In conducting this analysis, the Court does not consider legal conclusions as true,
and “threadbare recitals of the elements of a cause of action, supported by mere
conclusory statements, do not suffice.” Iqbal, 556 U.S. at 678.
These standards apply to parties who are proceeding pro se. As the Fifth Circuit
has noted, “[courts] hold pro se plaintiffs to a more lenient standard than lawyers when
analyzing complaints, but pro se plaintiffs must still plead factual allegations that raise
the right to relief above the speculative level.” Chhim v. Univ. of Texas at Austin, 836
F.3d 467, 469 (5th Cir. 2016).

7/24
A020

18-40608.849

Case 3:15-cv-00269 Document 92 Filed in TXSD on 01/06/17 Page 8 of 24

B. 28 U.S.C. § 1915
Indigent plaintiffs may seek permission from federal courts to file lawsuits and
proceed in forma pauperis (“IFP”), without prepayment of fees or security. 28 U.S.C.
§ 1915(a)(1). However, the ability to proceed IFP is not without limitations. Congress
recognized that “a litigant whose filing fees and court costs are assumed by the public,
unlike a paying litigant, lacks an economic incentive to refrain from filing frivolous,
malicious, or repetitive lawsuits.” Denton v. Hernandez, 504 U.S. 25, 31, 112 S.Ct. 1728,
118 L.Ed.2d 340 (1992). Accordingly, § 1915(e)(2)(B) requires a court to dismiss an EFP
lawsuit if the court determines that the action is frivolous or malicious, fails to state a
claim on which relief may be granted, or seeks monetary relief against a defendant who
is immune from such relief. The Fifth Circuit recently clarified that such dismissals
should be with notice, unless the dismissal is without prejudice, or if the plaintiff has
“alleged his best case.” Brown v. Taylor, 829 F.3d 365, 370 (5th Cir. 2016).
An action is frivolous if it lacks an arguable basis either in law or in fact. Hicks v.
Gamer, 69 F.3d 22, 25 (5th Cir. 1995); Booker v. Koonce, 2 F.3d 114, 115 (5th Cir.
1993). Although pro se complaints are liberally construed in favor of the plaintiff, district
courts are given broad discretion in determining when such pro se IFP complaints are
frivolous. Macias v. Raul A. (Unknown) Badge No. 153, 23 F.3d 94, 97 (5th Cir. 1994).
When reviewing Huang’s claims under § 1915(e)(2)(B), this Court has “not only the
authority to dismiss a claim based on an indisputably meritless legal theory, but also to
pierce the veil of the complaint’s factual allegations and dismiss those claims whose
factual contentions are clearly baseless.” Neitzke v. Williams, 490 U.S. 319, 327, 109
8/24
A021

18-40608.850

Case 3:15-cv-00269 Document 92 Filed in TXSD on 01/06/17 Page 9 of 24

S.Ct. 1827, 104 L.Ed.2d 338 (1989). Furthermore, “a court is not bound, as it usually is
when making a determination based solely on the pleadings, to accept without question
the truth of the plaintiffs allegations.” Denton, 504 U.S. at 32.
“A complaint lacks an arguable basis in law if it is based on an indisputably
meritless legal theory, such as if the complaint alleges violation of a legal interest which
clearly does not exist ” Samford v. Dretke, 562 F.3d 674, 678 (5th Cir. 2009) (internal
citation and quotation omitted). A complaint lacks an arguable basis in fact when “the
facts alleged are fantastic or delusional scenarios or the legal theory upon which a
complaint relies is indisputably meritless.” Id. (internal quotation marks omitted).
APPLICABLE LAW
A. 42 U.S.C § 1983
Section 1983 provides a private right of action for the deprivation of rights,
privileges, and immunities secured by the Constitution or laws of the United States. 42
U.S.C. § 1983. A complaint under § 1983 must allege that the acts complained of
occurred under color of state law and that the complaining parties were deprived of rights
guaranteed by the Constitution or laws of the United States. Parratt v. Taylor, 451 U.S.
527, 101 S.Ct. 1908, 1913, 68 L.Ed.2d 420 (1981), overruled on other grounds, Daniels
v. Williams, 474 U.S. 327, 106 S.Ct. 662, 88 L.Ed.2d 662 (1986); Piotrowski v. City of
Houston, 51 F.3d 512, 515 (5th Cir. 1995). A complaint under § 1983 must also allege
that the constitutional or statutory deprivation was intentional or due to deliberate
indifference and not the result of mere negligence. Farmer v. Brennan, 511 U.S. 825,114
S.Ct. 1970, 128 L.Ed.2d 811 (1994). Plaintiffs suing public officials under § 1983 must
9/24
A022

18-40608.851

Case 3:15-cv-00269 Document 92 Filed in TXSD on 01/06/17 Page 10 of 24

file short and plain complaints that must be factual and not conclusive. Schultea v. Wood,
47 F.3d 1427, 1433 (5th Cir. 1995) (en banc).
Claims under § 1983 may be brought against persons in their individual or official
capacities or against a governmental entity. Goodman v. Harris Cnty., 571 F.3d 388, 395
(5th Cir. 2009) (citing Bd. of Cnty. Comm ’rs ofBryan Cnty. v. Brown, 520 U.S. 397, 403
(1997)). Personal-capacity suits seek to impose liability on a government official as an
individual, while official-capacity suits generally represent another way of pleading an
action against an entity of which the official is an agent. Id. (citing Monell v. Dept, of
Soc. Serv's. of City ofNew York, 436 U.S. 658, 690, n.55 (1978)). In a personal-capacity
suit, the individual defendant may assert personal immunity defenses such as qualified
immunity.
B. Fourth Amendment Claims
Huang’s Fourth Amendment claims allege that his arrest was wrongful because it
was not supported by probable cause. The Fourth Amendment requires that a warrantless
arrest by an officer be supported by probable cause. Devenpeck v. Alford, 543 U.S. 146,
152 (2004). “Probable cause exists ‘when the totality of the facts and circumstances
within a police officer’s knowledge at the moment of arrest are sufficient for a reasonable
person to conclude that the suspect had committed or was committing an offense.’”
Haggerty v. Tex. S. Univ., 391 F.3d 653, 655-656 (5th Cir. 2004) (quoting Glenn v. City
of Tyler, 242 F.3d 307, 313 (5th Cir. 2001)). Because probable cause is a wholly
objective standard, viewed from the perspective of a reasonable officer, an arresting

10/24
A023

18-40608.852

Case 3:15-cv-00269 Document 92 Filed in TXSD on 01/06/17 Page 11 of 24

officer’s subjective motivation in making the arrest is irrelevant. Whren v. United States,
517 U.S. 806, 813 (1996).
C. Individual and Supervisory Liability under § 19S3
Only the direct acts or omissions of government officials, not the acts of
subordinates, will give rise to individual liability under § 1983. See Jones v. Lowndes
County, Mississippi, 678 F.3d 344, 349 (5th Cir. 2012) (“[a] Section 1983 claimant must
‘establish that the defendant was either personally involved in the deprivation or that his
wrongful actions were causally connected to the deprivation.’”); Zamow v. City of
Wichita Falls, Texas, 614 F.3d 161, 169 (5th Cir. 2010) (“To support a supervisory
liability claim, the misconduct of a subordinate must be conclusively linked to the action
or inaction of the supervisor.”), cert, denied, 564 U.S. 1038 (2011).
However, a supervisor not personally involved in the acts that allegedly deprived
the plaintiff of his constitutional rights can still be liable under § 1983, if (1) the
supervisor failed to train or supervise the officers involved; (2) there is a causal
connection between the alleged failure to supervise or train and the alleged violation of
the plaintiffs rights; and (3) the failure to train or supervise constituted deliberate
indifference to the plaintiffs constitutional rights. See Estate ofDavis ex rel. McCully v.
City ofN. Richland Hills, 406 F.3d 375, 381 (5th Cir. 2005); see also Morgan v. Texas
Dep’t of Criminal Justice McConnell Unit, 537 Fed. App’x. 502, 509 (5th Cir. 2013) (“A
defendant. . . may be held liable for his or her role in a constitutional violation premised
on [his] conduct as a supervisor, for example, his or her failure to train ”); Martone v.
Livingston, No. 4:13-CV-3369, 2014 WL 3534696, at *7 (S.D. Tex. July 16, 2014)
11/24
A024

18-40608.853

Case 3:15-cv-00269 Document 92 Filed in TXSD on 01/06/17 Page 12 of 24

(Plaintiff could hold TDCJ prison officials liable in supervisory capacity for “creating
and approving the dangerous conditions that caused [Plaintiffs] heat stroke, and failing
to remedy them.”). Further, “[supervisory liability may additionally exist ‘without overt
personal participation in the offensive act if supervisory officials implement a policy so
deficient that the policy itself is a repudiation of constitutional rights and is the moving
force of the constitutional violation.’” Cozzo v. Tangipahoa Parish Council, 279 F.3d
273, 289 (5th Cir. 2002). Under this analysis, customs or widespread practices are akin to
official policies. Cozzo, 279 F.3d at 289.
D. Qualified Immunity Under Federal Law
Under federal law, public officials acting within the scope of their authority
generally are shielded from civil liability by the doctrine of qualified immunity. See
Harlow v. Fitzgerald, 457 U.S. 800, 818, 102 S.Ct. 2727, 2738, 73 L.Ed.2d 396 (1982).
Qualified immunity protects “all but the plainly incompetent or those who knowingly
violate the law ”Malley v. Briggs, 106 S.Ct. 1092, 1096 (1986); DePree v. Saunders, 588
F.3d 282, 288 (5th Cir. 2009). As a result, courts will not deny qualified immunity unless
“existing precedent . . . placed the statutory or constitutional question beyond debate.”
Ashcroft v. al-Kidd, 563 U.S. 731, 741, 131 S.Ct. 2074, 2083, 179 L.Ed.2d 1149 (2011).
In conducting a qualified immunity analysis, each defendant’s conduct must be examined
individually. SeeMeadours v. Ermel, 483 F.3d 417, 422 (5th Cir. 2007).

2 In this context, “a plaintiff usually must demonstrate a pattern of violations and that the
inadequacy of the training is ‘obvious and obviously likely to result in a constitutional
violation.^McCully, 406 F.3d at 381.

12/24
A025

18-40608.854

Case 3:15-cv-00269 Document 92 Filed in TXSD on 01/06/17 Page 13 of 24

Although qualified immunity is an affirmative defense, a plaintiff “has the burden
to negate the assertion of qualified immunity once properly raised.” Collier v.
Montgomery, 569 F.3d 214, 217 (5th Cir. 2009). A plaintiff can meet this burden by
alleging facts showing that the defendant committed a constitutional violation and that
the defendant’s actions were objectively unreasonable in light of the clearly established
law at the time those actions were taken. Atteberry v. Nocono General Hosp., 430 F.3d
245, 253 (5th Cir. 2005). To be “clearly established,” the law must be “sufficiently clear
that every reasonable official would have understood that what he is doing violates that
right.” Taylor v. Barkes,

U.S.

135 S.Ct. 2042, 2044, 192 L.Ed.2d 78 (2015).

The Fifth Circuit has taken pains to point out that the “objectively unreasonable” analysis
here is not the same as the “deliberate indifference” analysis seen in the Eighth
Amendment context above—“[otherwise, a successful claim of qualified immunity in
this context would require defendants to demonstrate that they prevail on the merits, thus
rendering qualified immunity an empty doctrine.” Hinojosa v. Livingston, 807 F.3d 657,
672 (5th Cir. 2015).
As the Fifth Circuit has explained, “[a] plaintiff seeking to overcome” a defense of
immunity to suit “must plead specific facts that. . . allow the court to draw the reasonable
inference that . . . defeats]” the defense. Backe v. LeBlanc, 691 F.3d 645, 648 (5th Cir.
2012) (regarding qualified immunity). Only “[a]fter the district court finds a plaintiff has
so pled, if the court remains ‘unable to rule on the immunity defense without further
clarification of the facts,’” may it issue a “narrowly tailored” discovery order. Id.; see
Wicks v. Miss. State Emp 7 Svcs., 41 F.3d 991, 994 (5th Cir. 1995) (“Discovery . . . must
13/24
A026

18-40608.855

Case 3:15-cv-00269 Document 92 Filed in TXSD on 01/06/17 Page 14 of 24

not proceed until the district court first finds that the plaintiffs pleadings assert facts
which, if true, would overcome the defense of qualified immunity.”).
ANALYSIS
A. Qualified Immunity: Officer Kelemen
Huang has sued Officer Kelemen under 28 § U.S.C. 1983, asserting that Officer
Kelemen arrested him without probable cause, violating his Fourth Amendment rights
and causing him damages. Huang specifically complains that Officer Kelemen conducted
a deficient pre-arrest investigation because he failed to listen to Huang’s side of the story,
because Hill and Williams were unreliable witnesses of whom Kelemen should have been
“suspicious,” and because Officer Kelemen should not have interviewed Hill and
Williams outside of Huang’s earshot. Huang alleges that neither Hill nor Williams told
Officer Kelemen that they had asked Huang to leave “several times” and that Officer
Kelemen simply fabricated this information. Next, Huang alleges that Officer Kelemen
violated his Fourteenth Amendment rights as a pre-trial detainee by including incorrect
information in the arrest report, deliberately falsifying his report to “incriminate Huang
for criminal trespass.”
1. Alleged Lack of Probable Cause Supporting Arrest
“The right to be free from arrest without probable cause is a clearly established
constitutional right.” Mcmgieri v. Clifton, 29 F.3d 1012, 1016 (5th Cir. 1994). However,
under Fifth Circuit law, when a plaintiff alleges that he was arrested without probable
cause, an officer’s qualified immunity will defeat the claim so long as “a reasonable
officer could have believed the arrest at issue to be lawful, in light of clearly established

14/24
A027

18-40608.856

7

s*

*

•.I,

t

i

i

9
4

•V-

«•'

l

s

>:•

‘t

r.

J

J

<

t

A

<
•*
f

i

.i

i

•\

\

Case 3:15-cv-00269 Document 92 Filed in TXSD on 01/06/17 Page 15 of 24

law and the information the arresting officers possessed.” Mendenhall v. Riser, 213 F.3d
226, 230 (5th Cir. 2000) (alterations omitted). Even law enforcement officers who
“‘reasonably but mistakenly conclude that probable cause is present’ are entitled to
immunity.”Id. (internal citation omitted) (quoting Anderson, 483 U.S. at 641).
“Probable cause exists when the totality of the facts and circumstances within a
police officer’s knowledge at the moment of arrest are sufficient for a reasonable person
to conclude that the suspect had committed or was committing an offense ” Haggerty v.
Tex. S. Univ., 391 F.3d 653, 655-56 (5th Cir. 2004) (quotation marks and citation
omitted). Significantly, “probable cause requires only a probability or substantial chance
of criminal activity, not an actual showing of such activity.” Curtis v. Anthony, 710 F.3d
587, 595 (5th Cir. 2013) (quoting Illinois v. Gates, 462 U.S. 213, 245 n.13, 103 S.Ct.
2317, 76 L.Ed.2d 527(1983)).
When the defense of qualified immunity is asserted in a false arrest case, “the
plaintiff must show that the officers could not have reasonably believed that they had
probable cause to arrest the plaintiff for any crime.” Good v. Curtis, 601 F.3d 393, 401
(5th Cir. 2010) (citations omitted). “[L]aw enforcement officials who reasonably but
mistakenly conclude that probable cause is present are entitled to [qualified] immunity.”
Club Retro, L.L.C. v. Hilton, 568 F.3d 181, 206 (5th Cir. 2009) (quotation marks and
citation omitted).
In Texas, a person commits the offense of criminal trespass if he “enters or
remains on or in property of another ... without effective consent and the person ...
received notice to depart but failed to do so.” Wilson v. State, 09-15-00412-CR, 2016 WL
15/24
A028

18-40608.857

Case 3:15-cv-00269 Document 92 Filed in TXSD on 01/06/17 Page 16 of 24

6110712, at *5 (Tex. App.—Beaumont Oct. 19, 2016, no. pet. h.) (noting, “the statute
requires the State to prove that the defendant was warned by someone with the authority
to do so that he could no longer enter the owner’s property, a standard that is easily
understood by ordinary persons”).
Here, although Huang complains that the gas station employees were not reliable
witnesses and that Officer Kelemen’s investigation was not complete, Huang’s own
pleadings assert that Officer Kelemen had received a 911 call informing him that the gas
station employees had complained that “an [AJsian male that will not leave and caused
them a problem.” Further, even Huang admits that, when the police arrived minutes later,
he was still present at the gas station. Huang alleges that Officer Kelemen was informed
that Huang blocked the gas pump, insulted Hill, hit the teller window, and had refused to
leave the property even after Hill threatened to call the police.
Huang alleges that Officer Kelemen should have done more, and that he should
have given more weight to Huang’s version of effects. However, “the mere fact that there
may be some exculpatory evidence does not negate probable cause if the totality of the
circumstances support a reasonable conclusion that criminal activity is afoot.” Rakun v.
Kendall County, Tex, CIV.A. SA-06-CV-1044, 2007 WL 2815571, at *12 (W.D. Tex.
Sept. 24, 2007) (citing Gordy v. Bums, 294 F.3d 722, 729 (5th Cir. 2002) (recognizing
that there was evidence suggesting that the arrestee was not guilty of the crime, but noting
that the probable cause inquiry does not require a showing that the officer’s belief was
correct or that it was more likely true than false; rather, “the probable cause analysis only
requires that we find a basis for an officer to believe to a ‘fair probability’ that a violation
16/24
A029

18-40608.858

Case 3:15-cv-00269 Document 92 Filed in TXSD on 01/06/17 Page 17 of 24

occurred”), abrogated on other grounds by Castellano v. Fragozo, 352 F.3d 939 (5th Cir.
2003) (holding that malicious prosecution is not an actionable section 1983 violation)).
Thus, Huang’s own allegations show that Officer Kelemen could have reasonably
believed that probable cause existed to support Huang’s arrest for criminal trespass. See,
e.g.,Mendenhall v. Riser, 213 F.3d 226,230 (5th Cir. 2000).
Accordingly, the Court finds that Kelemen’s motion to dismiss on the grounds of
qualified immunity should be GRANTED because qualified immunity bars Huang’s
claims against Kelemen relating to Huang’s arrest. Further, the Court finds that
2. Alleged False Statements in Police Report and Affidavit
Huang alleges that Officer Kelemen violated his Fourteenth Amendment rights as
a pre-trial detainee by deliberately falsifying reports to incriminate Huang for criminal
trespass. Specifically, Huang pleads, “The police report and Affidavit for Warrant of
Arrest and Complaint has the same content, just for different purpose. On the affidavit,
Kelemen wrote wrong, even falsified info to make Huang look like having committed
criminal trespass, see Exhibit 10-14.” Huang’s pleadings take great pains to point out
each and every one of Officer Kelemen’s statements in the arrest warrant and report that
Huang claims was not true.
Huang does not cite to any authority that such an action would violate the
Fourteenth Amendment. In 2015, it was clearly established law that “[a] governmental
official violates the Fourth Amendment when he [or she] deliberately or recklessly
provides false, material information for use in an affidavit in support of a search [or
arrest] warrant.” Hart v. O'Brien, 127 F.3d 424, 449 (5th Cir. 1997). In the context of §
17/24
A030

18-40608.859

Case 3:15-cv-00269 Document 92 Filed in TXSD on 01/06/17 Page 18 of 24

1983 claims asserting Fourth Amendment violations, a governmental official is “liable for
swearing to false information in an affidavit in support of [an arrest] warrant, provided
that: (1) the affiant knew the information was false or [acted with] reckless disregard for
the truth; and (2) the warrant would not establish probable cause without the false
information.” Hart, 127 F.3d at 442 (citing Franks v. Delaware, 438 U.S. 154, 171
(1978)). “To prove reckless disregard for the truth [a plaintiff] must present evidence that
[the defendant] ‘in fact entertained serious doubts as to the truth’ of the relevant
statement.” Hart, 127 F.3d at 449 (quoting St. Amant v. Thompson, 390 U.S. 727, 732
(1968));Melton v. Phillips,---- F.3d------ , 2016 WL 4895989, at *2 (5th Cir. 2016).
Reviewing the allegations in Huang’s pleadings, and in light of the Court’s
findings above, the Court now also finds that Kelemen’s motion to dismiss on the
grounds of qualified immunity should be GRANTED because qualified immunity bars
Huang’s claims against Kelemen arising from Kelemen’s affidavit and report.
Further, after a review of the pleadings and the record of this case, the Court also
finds that Huang has pled his “best case,” and that all of Huang’s claims against Kelemen
should be DISMISSED under 28 U.S.C. § 1915(e)(2)(b)(ii).
B. Qualified Immunity: Officer Dricks
Huang alleges that Officer Dricks violated his Fourth Amendment rights, under the
doctrine of bystander liability, because Officer Dricks could have “prevented or stopped
the arrest by persuading Kelemen that cashiers lied; that Huang didn’t commit criminal
trespass; that further investigation is needed before making arrest.” Instead, Huang

18/24
A031

18-40608.860

Case 3:15-cv-00269 Document 92 Filed in TXSD on 01/06/17 Page 19 of 24

alleges that Officer Dricks “just blindly watched, and even assisted Kelemen to search
and arrest Huang, and transported Huang to jail [and] acquiesced in Kelemen’s arrest.”
“Bystander liability” attaches when “the officer ‘(1) knows that a fellow officer is
violating an individual’s constitutional rights, (2) has a reasonable opportunity to prevent
the harm; and (3) chooses not to act.’” Whitley v. Hanna, 726 F.3d 631, 646 (5th Cir.
2013) (quoting Randall v. Prince George’s Cnty., Md., 302 F.3d 188, 204 (4th Cir.
2002)); see also Hale v. Townley, 45 F.3d 914, 919 (5th Cir. 1995). “The rationale
underlying the bystander liability theory is that a bystanding officer, by choosing not to
intervene, functionally participates in the unconstitutional act of his fellow officer.” Id. at
647 (quoting Randall, 302 F.3d at 204 n. 24). This doctrine arises most often in the
context of excessive force claims. Even assuming arguendo that it would be applicable to
a claim of wrongful arrest unsupported by probable cause, Huang’s own allegations—as
discussed above—show that the claims should be dismissed and that Officer Dricks is
entitled to qualified immunity here.
Accordingly, the Court GRANTS Officer Dricks’ motion to dismiss Huang’s
claims against him on the grounds of qualified immunity. Further, after a review of the
pleadings and the record of this case, the Court also finds that Huang has pled his “best
case,” and that all of Huang’s claims against Dricks should be DISMISSED under 28
U.S.C. § 1915(e)(2)(b)(ii).
C. Allegations against 409 Towing & Recovery
Huang’s claims against 409 Towing & Recovery are based upon his allegation
that, because there was no probable cause for his arrest, there was “no probable cause for
19/24
A032

18-40608.861

Case 3:15-cv-00269 Document 92 Filed in TXSD on 01/06/17 Page 20 of 24

towing of Huang’s vehicle by 409 towing [and] the seizure of vehicle by 409 towing,
acting under color of state law under direction of LMPD, violated Huang’s clearly
established fourth amendment right, proximately causing] damage[s] to Huang.”
However, as set out above, Huang’s own pleadings allege facts showing that
Officer Kelemen’s arrest of Huang was based upon information received from the 911
dispatch, as well as witness testimony at the scene. Further, after a review of the
pleadings and the record of this case, the Court also finds that Huang has pled his “best
case,” and that all of Huang’s claims against 409 Towing & Recovery should be
DISMISSED under 28 U.S.C. § 1915(e)(2)(b)(ii).
D. Allegations against Christina Balvantin
Next, the Court turns to the allegations against Christina Balvantin. Balvantin is a
Legal Secretary for the Galveston County District Attorney’s Office, and she was the
affiant on the Complaint and Information filed by the District Attorney’s Office to charge
Huang with criminal trespass. Huang alleges that she violated his constitutional rights
under the Fourteenth Amendment by “intentionally omitting exculpatory info[rmation]
on 02/04/2014 [Complaint & Information] and failing to do further inquiry.” Specifically,
he alleges that she should have also included a statement that Officer Kelemen made in
an affidavit that, “Huang said Hill was lying about the incident and he did not do
anything wrong.” Huang alleges that this statement should have alerted a person with
reasonable caution that Huang was innocent, and that Balvantin should have at least then
requested more information, “such as Murphy USA store surveillance video, Kelemen’s
dashcam video, [and the] 911 call recording.”
20/24

A033

18-40608.862

Case 3:15-cv-00269 Document 92 Filed in TXSD on 01/06/17 Page 21 of 24

Huang contends that the Galveston County DA’s Office subsequently obtained
more complete information, including the store video, the La Marque Police Department
report, and Kelemen’s dashcam video. However, he alleges that Balvantin nonetheless
signed a second Complaint & Information and “swore to C&I for evil purpose of
maliciously incriminating Huang for criminal trespass” in August 2014, even though he
alleges that “a reasonable person would have easily concluded Hill, Williams, [and]
Kelemen lied about it, [and] Huang didn’t commit criminal trespass.”
Balvantin has moved to dismiss Huang’s claims against her for failure to state a
claim and qualified immunity. After reviewing the applicable authorities, the Court finds
that Balvantin’s motion to dismiss should be GRANTED, and that Huang has failed to
state a claim against her. Specifically, the Court finds that Huang’s allegations are
insufficient to state a claim under Castellano v. Fragozo, 352 F.3d 939, 945 (5th Cir.
2003) (en banc), cert denied, 543 U.S. 808 (2004) (noting that there is no “freestanding
constitutional right to be free from malicious prosecution.”). See also Albright v. Oliver,
510 U.S. 266, 268, 114 S.Ct. 807, 127 L.Ed.2d 114 (1994) (no substantive right under the
Due Process Clause of the Fourteenth Amendment to be free from criminal prosecution
except upon probable cause).
Further, after a review of the pleadings and the record of this case, the Court also
finds that Huang has pled his “best case,” and that all of Huang’s claims against
Balvantin should be DISMISSED under 28 U.S.C. § 1915(e)(2)(b)(ii).

21/24
A034

18-40608.863

Case 3:15-cv-00269 Document 92 Filed in TXSD on 01/06/17 Page 22 of 24

E. Allegations against City of La Marque and Chief Aragon
Huang alleges that the City of La Marque delegated policymaking authority to
Chief Aragon, and that Chief Aragon was deliberately indifferent in hiring Officer
Kelemen. Huang alleges that the City received “a lot of citizen complaints” against
Officer Kelemen in 2003, and he alleges that Officer Kelemen’s patrol supervisor in 2005
“expressed concern over the validity of some of citations Kelemen issued.” Accordingly,
Huang contends that “La Marque should have known Kelemen is highly likely to cause
injury to citizen and should not have hired Kelemen.”
Huang also alleges that the City failed to train Officer Kelemen and Officer
Dricks, stating, “police officer shall be trained to adhere to the truth, not to fabricate info,
at every phase of criminal investigation. Chief Aragon, the final policymaker at LMPD,
deliberately adopted no such training policy.”
Huang alleges that the City of La Marque has a “policy/custom of disregarding
truth, condoning officer’s wrongdoing at LMPD,” pointing to the three separate
complaints that Huang himself has filed about Officer Kelemen. Huang alleges that
“Aragon didn’t take any action to seek out the truth or punish Kelemen, but simply
referred Huang to judicial system, completely ignoring [his] own duty.” According to
Huang, Aragon “could have seen easily that Kelemen lied on warrant affidavit and police
report by examining Kelemen’s dashcam video, police report, Warrant Affidavit, 911
calls,” but failed to do so, and he instead “deliberately disregarded the truth, condoned
and ratified Kelemen’s wrongdoing.” Huang alleges that this policy or custom
encouraged Officer Kelemen to violate Huang’s civil rights.
22/24
A035

18-40608.864

Case 3:15-cv-00269 Document 92 Filed in TXSD on 01/06/17 Page 23 of 24

Huang further alleges that “Aragon adopted no written training policy to train its
officer adequately to protect citizen’s constitutional rights. Its officers were not trained or
adequately trained to determine probable cause for arrest, to adhere to the truth during
investigation, to intervene in presence of fellow officer’s constitutional violations.”
Huang alleges that “Aragon adopted no written criminal trespass policy to guide its
officers on how to determine if criminal trespass happened, when to issue criminal
trespass warning, when to make arrest. As police chief, Aragon knows the risks of
constitutional violations very well if its subordinates were not trained or supervised in
areas of arrest but he deliberately disregarded that risk by failing to adopt training policy,
adopt criminal trespass policy, train and supervise them properly, especially Kelemen and
Dricks.”
All of Huang’s allegations against Chief Aragon and the City relate to the alleged
lack of probable cause supporting Huang’s arrest. As noted above, Huang’s own
pleadings contain facts that show that Officer Kelemen’s arrest of Huang was supported
by probable cause, that no constitutional violation has been pled, and that Huang’s
pleadings are insufficient to establish municipal or supervisory liability. Accordingly, the
Court finds that the City and Chief Aragon’s motion to dismiss should be GRANTED.
Further, after a review of the pleadings and the record of this case, the Court also
finds that Huang has pled his “best case,” and that all of Huang’s claims against Chief
Aragon and the City should be DISMISSED under 28 U.S.C. § 1915(e)(2)(b)(ii).

23/24

A036

18-40608.865

Case 3:15-cv-00269 Document 92 Filed in TXSD on 01/06/17 Page 24 of 24

CONCLUSION
As stated more fully above, the Court finds that Huang’s claims should be
DISMISSED against Defendants Chief Aragon, Officer Michael Kelemen, Officer
Richard Dricks, the City of La Marque and Christina Balvantin, and that these
Defendants’ motions (Dkt. 66, 72) should be GRANTED because Huang has failed to
state a claim and Defendants are entitled to qualified immunity.
Further, after a review of the pleadings and the record of this case, the Court also
finds that Huang has pled his “best case,” and that all of Huang’s claims against 409
Towing & Recovery should be DISMISSED under 28 U.S.C. § 1915(e)(2)(b)(ii).
Such dismissals are WITH PREJUDICE.
The Court also DENIES Huang’s motions to strike Dkt. 69 and 71, and, for the
reasons stated above, DENIES Huang’s motion for judgment against 409 Towing &
Recovery 74. Additionally, the Court DENIES Defendant’s supplemental motion, Dkt.
63, as moot.
SIGNED at Galveston, Texas, this 6th day of January, 2017.

George C.GJanks Jr.
7
United States District Judge

24/24
A037

18-40608.866

